U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




      February 28, 2006



      MEMORANDUM FOR:            EMILY STOVER DEROCCO
                                 Assistant Secretary for Employment
                                  and Training




      FROM:                      ELLIOT P. LEWIS
                                 Assistant Inspector General
                                  for Audit

      SUBJECT:                   Grant Implementation Issues
                                 National Emergency Grant No. EM-15065-05-60
                                 Issued to the Alabama Department of Economic and
                                 Community Affairs for Hurricane Katrina Relief
                                 Management Letter No. 04-06-003-03-390

      INTRODUCTION

      Normally a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effective while reducing the
      possibility of fraud, waste, and abuse. We will also use this medium to provide
      positive feedback regarding grant operations.

      BACKGROUND

      On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
      Alabama coasts resulting in a national disaster. In response to this disaster, on
      September 2, 2005, ETA awarded the State of Alabama a National Emergency
      Grant (NEG) to create 350 temporary jobs for dislocated workers. The $4 million
      grant, administered by the Alabama Department of Economic and Community
      Affairs (ADECA), had an initial release of $1.3 million.

      This Management Letter is an interim reporting mechanism and should be read
      with the understanding that, once the NEG to ADECA is fully implemented and
      accrued expenditures reported, financial or performance audits of the subject
      NEG may be performed.
OBJECTIVE, SCOPE, AND METHODOLOGY

During the period of October 24, 2005, through December 2, 2005, we performed
work at ADECA’s Office of Workforce Development, 1 Local Workforce
Investment Area (LWIA), and 6 of the LWIA’s 23 temporary jobs worksites. The
worksites were established to provide public service employment to residents of
areas affected by Hurricane Katrina. These worksites included participants
working for local governments and private non-profit entities. We interviewed 55
of the 233 NEG participants at the LWIA we visited, as well as examined their
related timesheets and files. We also attempted to trace timesheets to timecards
at one worksite, for 13 of its 55 participants.

Our goal is to assist ETA in its efforts to ensure that NEG funded programs are
effective and to reduce the potential for fraud, waste, and abuse.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal government in the aftermath of Hurricanes Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be forwarded to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

Positive Issue:

   •   State monitoring and assistance teams are providing oversight and
       assistance.

The State monitoring and assistance teams performed a site visit to the local
area during the month of November. Such monitoring should help to ensure
compliance with NEG requirements.

Potential Issues:

   •   Implementation Plan did not identify temporary jobs.

Attachment A of the NEG Award required ADECA to identify the temporary jobs
and worksites. Although the implementation plan identified the worksites where
participants would be assigned, the plan was silent regarding the temporary jobs
in which participants would be employed. The absence of such information
limited ETA’s ability to determine if the planned temporary jobs were suitable
disaster relief employment.




                                        2
   •   Participants performed work activities outside the scope of the grant.

We interviewed 10 participants who stated they performed duties that we
consider to be outside the scope of the grant. The participants stated that they
performed duties ranging from mechanical work on police cars to mowing grass.
These work activities did not relate directly to hurricane relief. Furthermore, at
least two of the ten participants estimated that they spent from 40 to 50 percent
of their time on non-hurricane related activities. While these job activities may
qualify as public service jobs under the Flexibility for Displaced Workers Act (HR
3761), they do not qualify under the terms of the contract with the City of
Prichard.

   •   Participant placement list did not contain all participants at the
       worksites.

We found two participants at two worksites that were not on the participant
placement list. Although these worksites were submitting timesheets and the
LWIA Finance Section was paying the participants, the Program Section (Adult
and Youth Services) was not tracking them on the participant placement list
provided.

   •   Participants who were shown on the participant placement list as
       active were no longer employed.

Our worksite visits revealed that the participant placement list identified 15
participants at 4 worksites as active, even though the participants quit or had
been terminated by worksite officials. While it appears worksite officials did not
do a sufficient job of notifying the LWIA of the participants’ status, a review of the
payroll records showed that no payments were made to the participants after
their last day of employment.

   •   Participants were ineligible.

Our interviews disclosed that three participants at one worksite did not meet the
eligibility requirements at the time of certification. According to the participants,
their employment had been interrupted by Hurricane Katrina; however, they had
returned to their employment prior to the certification, and were working at the
time of certification. These participants were hired because they are bilingual, a
critical skill needed for a community that sustained severe damage and whose
Asian population spoke little English.

   •   Timecards could not be reconciled with timesheets submitted for
       payment or timecards were not available for review.

We were unable to reconcile timecards to timesheets submitted for participant
payments at one worksite. During our initial visit to the worksite, 13 of the 41


                                          3
participants shown on the participant placement list were not present for various
reasons, including: no-shows, participants departed early, participants called in
sick, and the proximity to the end of the workday when we scheduled the visit.
Nonetheless, time was recorded for seven participants who either had been no-
shows or called in sick. Ten of the 13 participants missed during our initial
worksite interviews were present during our follow-up visit.

When we subsequently visited the LWIA, we requested to review timecards--the
source of information on the timesheet--for the above 13 participants. Three of
their timecards could not be reconciled to the timesheets, and another eight
timecards were not readily available for review. According to the worksite official,
the individual responsible for posting timecard information to the timesheets was
not at work on the day of our visit, so we were not able to resolve the issue.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training evaluate
issues raised in this Management Letter to determine how they might be
addressed by ETA and/or State officials.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that a Katrina Team has been organized by the
Office of National Response to assist regional offices and states to resolve
questions or concerns as they arise. The Assistant Secretary stated that the
State provided job descriptions to the Atlanta Regional Office on November 7,
2005, and the worksites and jobs being performed will be reviewed during the
monitoring review. The Assistant Secretary further stated that ETA will work with
the grantee to: 1) ensure the City of Pritchard contract is amended to authorize
Disaster Relief Employment, as well as Public Sector Employment; 2) ensure a
system is in place so timesheets accepted by the LWIA Finance Section are from
authorized worksites and participants issued checks are verified against the
participant placement list; and 3) resolve the issue regarding three participants
OIG identified as “not eligible.” Finally, the Assistant Secretary stated that ETA’s
monitoring team will review the issues related to timecards that could not be
reconciled with timesheets, and ensure that corrective action has been taken.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of the results of ETA’s actions as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

                                         4
If you have any questions concerning this final Management Letter, please
contact Michael Yarbrough, Regional Inspector General for Audit, in Atlanta at
(404) 562-2341.

cc:   Steven Law
      Deputy Secretary

      Helen Parker
      Regional Administrator

      Tim Alford
      Director, Office of Workforce Development

      Phyllis Newby
      ETA Audit Liaison




                                        5
6
7
